      Department of Homeland Security





       CBP’s Use of Unmanned Aircraft Systems in the 

                  Nation’s Border Security 





OIG-12-85                                          May 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      MAY 30 2012 
 
MEMORANDUM FOR:	             Michael C. Kostelnik 
                             Assistant Commissioner 
                             Office of Air and Marine 
                             U.S. Customs and Border Protection 
 
FROM:	                       Anne L. Richards 
                             Assistant Inspector General for Audits 
  
SUBJECT:	                    CBP’s Use of Unmanned Aircraft Systems in the Nation’s 
                             Border Security 
   
Attached for your action is our final report, CBP’s Use of Unmanned Aircraft Systems in 
the Nation’s Border Security.  We incorporated the formal comments from the U.S. 
Customs and Border Protection (CBP) in the final report.   
 
The report contains four recommendations aimed at improving CBP’s use of unmanned 
aircraft systems in the Nation’s border security.  Your office concurred with all four 
recommendations.  As prescribed by the Department of Homeland Security Directive 
077‐1, Follow‐Up and Resolutions for the Office of Inspector General Report 
Recommendations, within 90 days of the date of this memorandum, please provide our 
office with a written response that includes your (1) agreement or disagreement, 
(2) corrective action plan, and (3) target completion date for each recommendation.  
Also, please include responsible parties and any other supporting documentation 
necessary to inform us about the current status of the recommendation.  Until your 
response is received and evaluated, the recommendations will be considered open and 
unresolved. 
 
Consistent with our responsibility under the Inspector General Act, we are providing 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security.  We will post 
the report on our website for public dissemination 
 
Please call me with any questions, or your staff may contact John E. McCoy II,  
Deputy Assistant Inspector General for Audits, at (202) 254‐4100. 
 
Attachment 
 
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1 


   Background ........................................................................................................................ 2 


   Results of Review ................................................................................................................ 3 


              CBP Needs To Improve Planning of Its UAS Program To Maximize Operations .... 3
              Recommendations .................................................................................................. 7
              Management Comments and OIG Analysis ........................................................... 8

   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 11 

              Appendix B:          Management Comments to the Draft Report ............................... 13 

              Appendix C:          DHS OIG Estimated Computation of Mission Availability.............. 16

              Appendix D:          Major Contributors to This Report ................................................ 17 

              Appendix E:          Report Distribution ........................................................................ 18 


   Abbreviations
        CBP              U.S. Customs and Border Protection
        DHS              U.S. Department of Homeland Security
        FY               fiscal year
        FEMA             Federal Emergency Management Agency
        ICE              U.S. Immigration and Customs Enforcement
        NASOC            National Air Security Operations Center
        NOAA             National Oceanic and Atmospheric Administration
        OAM              Office of Air and Marine
        OIG              Office of Inspector General
        RSTA             reconnaissance, surveillance, targeting, and acquisition
        UAS              unmanned aircraft system




www.oig.dhs.gov                                                                                                                 OIG-12-85
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   We conducted a review of U.S. Customs and Border Protection (CBP) actions to establish
   its unmanned aircraft systems program. The purpose of the program is to provide
   reconnaissance, surveillance, targeting, and acquisition capabilities across all CBP areas
   of responsibility. Our objective was to determine whether CBP has established an
   adequate operation plan to define, prioritize, and execute its unmanned aircraft
   mission.

   CBP had not adequately planned resources needed to support its current unmanned
   aircraft inventory. Although CBP developed plans to use the unmanned aircraft’s
   capabilities in its Office of Air and Marine mission, its Concept of Operations planning
   document did not adequately address processes (1) to ensure that required operational
   equipment, such as ground control stations and ground support equipment, is provided
   for each launch and recovery site; (2) for stakeholders to submit unmanned aircraft
   mission requests; (3) to determine how mission requests are prioritized; and (4) to
   obtain reimbursement for missions flown on stakeholders’ behalf. This approach places
   CBP at risk of having invested substantial resources in a program that underutilizes
   resources and limits its ability to achieve Office of Air and Marine mission goals.

   CBP needs to improve planning of its unmanned aircraft system program to address its
   level of operation, program funding, and resource requirements, along with stakeholder
   needs. We made four recommendations that will aid CBP in maximizing the use of
   unmanned aircraft. CBP management concurred with all four recommendations.




www.oig.dhs.gov                                1                                       OIG-12-85
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   The mission of the Office of Air and Marine (OAM) is to protect the American people and
   the Nation’s critical infrastructure through the coordinated use of integrated air and
   marine forces. Air and marine forces are used to detect, interdict, and prevent acts of
   terrorism and the unlawful movement of people, illegal drugs, and other contraband
   toward or across U.S. borders. The unmanned aircraft system (UAS) provides command,
   control, communication, intelligence, surveillance, and reconnaissance capability to
   complement crewed aircraft and watercraft, and ground interdiction agents. A UAS is
   composed of a long-endurance, medium-altitude remotely piloted aircraft, ground
   control station, ground data terminal, data and voice communications, and other
   ground support equipment required to operate and maintain the system. UASs provide
   reconnaissance, surveillance, targeting, and acquisition (RSTA) capabilities across all CBP
   areas of responsibility.

   CBP began UAS operations in fiscal year (FY) 2004 with a pilot study conducted by the
   Office of Border Patrol to determine the feasibility of using UASs in the southwest
   border region. The pilot study proved the UAS was successful in providing RSTA and
   actionable intelligence to Border Patrol ground agents. In addition, the study concluded
   that UASs provided unique law enforcement capabilities, such as the ability to carry a
   variety of sensors and payloads and to remain airborne for extended periods without
   the limitations imposed by requiring onboard pilots. CBP has since expanded UAS
   operations to the Caribbean, gulf, and northern border regions.

   CBP reported that, subsequent to the FY 2004 pilot, Congress appropriated approximately
   $240.6 million to establish a UAS program within CBP. CBP also reported that it has
   expended $152.3 million to purchase nine aircraft and related equipment. CBP had
   seven operational aircraft during our review. CBP received two additional aircraft in late
   2011. CBP was awaiting delivery of a tenth aircraft purchased with FY 2011 funds. Each
   aircraft system costs approximately $18 million. In June 2011, CBP had 23 pilots who
   were capable of launching and recovering unmanned aircraft. UAS missions are
   launched and recovered from National Air Security Operation Centers (NASOCs) in Sierra
   Vista, Arizona; Corpus Christi, Texas; Cocoa Beach, Florida; and Grand Forks, North
   Dakota. An unmanned aircraft mission crew generally consists of a Command Duty
   Officer, Pilot-in-Command, Sensor Operator, and one or more contract technicians.
   Figure 1 shows a Predator B aircraft with the maritime radar enhancement.




www.oig.dhs.gov                                 2                                       OIG-12-85
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




      Figure 1. Guardian, the maritime variant of the Predator B. 

      Source: CBP Sierra Vista, Arizona, NASOC 


   Results of Review
           CBP Needs To Improve Planning of Its UAS Program To Maximize Operations

           CBP had not adequately planned for resources needed to support the current
           unmanned aircraft inventory. Although CBP developed plans to utilize the
           unmanned aircraft’s capabilities in its OAM mission, its Concept of Operations
           planning document did not adequately address processes (1) to ensure that
           required operational equipment, such as ground control stations and ground
           support equipment, is available for each launch and recovery site; (2) for
           stakeholders to submit unmanned aircraft mission requests; (3) to determine
           how mission requests are prioritized; and (4) to obtain reimbursement for
           missions flown on stakeholders’ behalf. This approach places CBP at risk of
           having invested substantial resources in a program that underutilizes resources
           and limits its ability to achieve OAM mission goals.

           Resource Planning

           CBP has not ensured that adequate resources are available to effectively operate
           its unmanned aircraft. CBP’s Strategic Plan requires the agency to develop and
           implement a planning framework to incorporate investment, resource, and
           program management processes to ensure that CBP can acquire and effectively
           manage its resources. The plan requires CBP to accomplish its high-priority
           missions and objectives in a way that maximizes return on investment. CBP
           procured unmanned aircraft before implementing adequate plans to do the
           following:




www.oig.dhs.gov                                3                                      OIG-12-85
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                  Achieve the desired level of operation;

                  Acquire suﬃcient funding to provide necessary operations, maintenance,
                   and equipment; and

                  Coordinate and support stakeholder needs.

           UAS Level of Operation

           CBP has not achieved its scheduled nor desired levels of ﬂight hours of its
           unmanned aircraft. The Oﬃce of Inspector General (OIG) estimates that, based
           on the contract performance speciﬁcations, seven UASs should support 10,662
           ﬂight hours per year to meet the mission availability threshold (minimum
           capability) and 13,328 ﬂight hours to meet the mission availability objective
           (desired capability). However, resource shortfalls of qualiﬁed staﬀ and
           equipment coupled with restrictions imposed by the Federal Aviation
           Administration, weather, host airﬁelds, and others have resulted in CBP
           scheduling just 7,336 ﬂight hours for its seven unmanned aircraft and limited
           actual ﬂight hours to 3,909 hours. This usage represents 37 percent of the
           unmanned aircraft’s mission availability threshold and 29 percent of its mission
           availability objective. Despite the current underutilization of unmanned aircraft,
           CBP received two additional aircraft in late 2011 and was awaiting delivery of a
           tenth aircraft in 2012. See appendix C for mission availability threshold and
           objective computations.

           Funding of Operations and Maintenance

           CBP reported that, since the UAS program’s inception, Congress has
           appropriated a total of $12.6 million for operations and maintenance. The
           operations and maintenance funding category includes training, satellite links,
           facility rental, and contractor support. CBP also reported that from FY 2006
           through FY 2011, it expended $55.3 million for operations and maintenance, but
           has not made a speciﬁc operations and maintenance budget request for the UAS
           program. This has resulted in a budget shortfall. According to CBP, it was
           required to transfer approximately $25 million from other programs in FY 2010
           to address operations and maintenance funding shortfalls. As a result of CBP’s
           insuﬃcient funding approach, future UAS missions may have to be curtailed.




www.oig.dhs.gov                                 4                                       OIG-12-85
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Funding of Equipment

           CBP has not adequately planned to fund unmanned aircraft-related equipment.
           The procurement funding category includes aircraft and related equipment, such
           as ground control stations, ground support equipment, cameras, and navigation
           systems. This approach has resulted in insuﬃcient equipment to perform UAS
           missions. For example:

                  Corpus Christi NASOC received a maritime version of the Predator
                  aircraft, which was placed in service in February 2011, but Corpus Christi
                  did not receive a compatible ground control station. As a result, the
                  Corpus Christi NASOC was not initially able to use the system’s SeaVue
                  maritime radar capability. However, Cocoa Beach NASOC transferred its
                  backup ground control station to Corpus Christi to facilitate mission
                  operations. A compatible ground control station is expected to be
                  delivered in May 2012. This transfer was required because Corpus Christi
                  was not designed for launch and recovery operations.

                  On at least three occasions, NASOC Grand Forks could not conduct ﬂight
                  operations because maintenance could not be performed due to lack of
                  ground support equipment. One aircraft was down for 4 days in January
                  2011 due to lack of wing-jacks and 3 days in February due to lack of go-
                  jacks and fuselage stands. Another aircraft was down for 2 days in
                  February 2011 due to lack of go-jacks and fuselage stands. Ground
                  support equipment must be transferred from one NASOC to another
                  because each NASOC does not have its own equipment.

                  CBP does not have an adequate number of ground control stations to
                  ensure safe operations. CBP’s MQ-9 Supplement to the Aviation
                  Operations Handbook requires a permanent ground control station and a
                  mobile ground control station for the safe operation of unmanned
                  aircraft. The handbook requires NASOC directors to submit written
                  requests for relief from any provision of the handbook to the Executive
                  Director of Test, Training, Safety, and Standards. At the time of our
                  ﬁeldwork, three of four NASOCs were operating without the required
                  mobile backup ground control stations. However, only one of four
                  NASOCs was granted a waiver to operate without this equipment.




www.oig.dhs.gov                                5                                       OIG-12-85
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Stakeholder Needs

           CBP’s planning has not adequately addressed coordination and support of
           stakeholders. Although CBP identiﬁed stakeholders and has ﬂown missions on
           their behalf, it has not implemented a formal process for stakeholders to submit
           mission requests and has not implemented a formal procedure to determine
           how mission requests are prioritized. It also does not have agreements with
           exterior stakeholders for reimbursement of mission costs.

           An OAM manager and stakeholders we interviewed said that CBP had ﬂown
           missions to support the following stakeholders:

                  Department of Homeland Security (DHS) agencies, including Oﬃce of
                  Border Patrol, United States Secret Service, Federal Emergency
                  Management Agency (FEMA), and Immigration and Customs
                  Enforcement (ICE);
                  Bureau of Land Management;
                  Federal Bureau of Investigation;
                  Department of Defense;
                  Texas Rangers;
                  United States Forest Service; and
                  National Oceanic and Atmospheric Administration (NOAA).

           Also, OAM management and stakeholders we interviewed discussed the
           following examples of missions performed by the UAS program:

                  Provided NOAA with videos of dams, bridges, levees, and riverbeds
                  where ﬂooding occurred or was threatened;

                  Provided FEMA with video/radar images of ﬂooding;

                  Provided surveillance over a suspected smuggler’s tunnel, which yielded
                  information that, according to an ICE representative, would have
                  required many cars and agents to obtain;

                  Provided radar mapping, or overlying radar images taken a few days
                  apart, to show changes in location of ﬂooding, allowing the National
                  Guard to deploy high-water vehicles and sandbags to where they were
                  most needed;




www.oig.dhs.gov                                6                                      OIG-12-85
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                  At the request of the State Department, participated in discussions with
                  another country on the use of unmanned aircraft;

                  Participated in joint eﬀorts with the U.S. Army to leverage capabilities of
                  unmanned aircraft and test new technology; and

                  Participated in eﬀorts to establish a quarterly forum to share lessons
                  learned with the Air Force and other government agencies.

           Stakeholders we interviewed from NOAA, ICE, FEMA, and the Army National
           Guard were generally satisﬁed with support provided by the UAS program.
           However, they were unaware of a formal process to request UAS support and of
           how CBP prioritizes missions. CBP included a process to satisfy requests for UAS
           support in its Concept of Operations for CBP’s Predator B Unmanned Aircraft
           System, FY 2010 Report to Congress, but this process was not implemented.
           Instead, tasking decisions are usually made by the Director of Air Operations at
           the NASOC with responsibility for the area of the stakeholder surveillance
           requirement. Missions are requested by various means, including from
           headquarters, Border Patrol agents, local law enforcement agencies, and other
           Federal agencies. We interviewed four stakeholders, three of whom
           recommended a standardized process to request UAS missions. A standardized
           process would provide transparency and ensure that requests are processed in a
           timely, predictable manner. This process would allow stakeholders to better
           plan their operations to meet mission needs.

           The Robert T. Staﬀord Disaster Relief and Emergency Assistance Act, as
           amended, provides a system by which a Presidential disaster declaration of an
           emergency triggers ﬁnancial assistance through FEMA. CBP seeks reimbursement
           for services provided to FEMA under this Act since Federal agencies may be
           reimbursed for expenditures from the Act’s appropriations. However, CBP does
           not have agreements to obtain reimbursement for missions ﬂown on behalf of
           other stakeholders. When appropriate and authorized by law, obtaining
           reimbursement for such missions would provide additional funding needed for
           staﬀ, operations and maintenance, and essential equipment.

           Recommendations

           We recommend that the Assistant Commissioner, Oﬃce of Air and Marine:




www.oig.dhs.gov                                 7                                        OIG-12-85
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #1:

           Analyze requirements and develop plans to achieve the UAS mission availability
           objective and acquire funding to provide necessary operations, maintenance,
           and equipment.

           Recommendation #2:

           Develop and implement procedures to coordinate and support stakeholders’
           mission requests.

           Recommendation #3:

           Establish interagency agreements with external stakeholders for reimbursement
           of expenses incurred fulfilling mission requests where authorized by law.

           Recommendation #4:

           Postpone additional UAS purchases until recommendation #1 has been
           implemented.

           Management Comments and OIG Analysis

           CBP submitted formal comments to our report, and a copy of its response is
           included as appendix B. CBP also provided technical comments, and we have
           made changes to the report based on those comments. Additionally, CBP
           concurred with all recommendations, and our analysis of its concurrence follows.

           Recommendation #1: Analyze requirements and develop plans to achieve the
           UAS mission availability objective and acquire funding to provide necessary
           operations, maintenance, and equipment.

           Management Response: CBP stated that it has established the Strategic Air and
           Marine Plan, which defines its planned UAS acquisition and sustainment over the
           next 5 years. This plan is based on the Concept of Operations and Operations
           Requirements Documents, which define the specific capabilities needed to
           achieve assigned homeland security missions. CBP added that funding requests
           are developed to support the UAS portion of the Strategic Air and Marine Plan;
           however, the actual funding is subject to changing Department and Agency
           criteria.



www.oig.dhs.gov                               8                                      OIG-12-85
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           OIG Analysis: CBP’s comments do not appear to address the recommendation,
           which will remain open and unresolved until CBP provides specific documentation
           that details how it plans to achieve the UAS mission availability objective and
           acquire funding to provide necessary operations, maintenance, and equipment.

           Recommendation #2: Develop and implement procedures to coordinate and
           support stakeholders’ mission requests.

           Management Response: CBP stated that it has implemented flexible and
           responsive procedures to coordinate and support stakeholders’ requests for
           deployment of the UAS when deemed appropriate.

           OIG Analysis: CBP comments appear to be responsive to this recommendation,
           which will remain open and unresolved until the OIG has received and evaluated
           the written procedures to coordinate and support stakeholders’ mission
           requests.

           Recommendation #3: Establish interagency agreements with external
           stakeholders for reimbursement of expenses incurred fulfilling mission requests
           where authorized by law.

           Management Response: CBP stated that efforts are under way at DHS to
           address the issue of reimbursement for expenses incurred fulfilling external UAS
           missions, and there are procedures for reimbursement for mission sets that fall
           outside the normal scope. CBP also stated that it currently establishes
           interagency agreements with government agency partners for resourcing efforts
           that fall outside the scope of normal mission sets. This typically involves using
           CBP unmanned aircraft to demonstrate new technologies, capabilities, and
           tactics.

           OIG Analysis: CBP comments appear to be responsive to the recommendation,
           which will remain open and unresolved until the OIG has received and evaluated
           the corrective action plan developed by DHS that addresses how CBP will obtain
           reimbursement for expenses incurred fulfilling mission request where authorized
           by law.

           Recommendation #4: Postpone additional UAS purchases until
           recommendation #1 has been implemented.




www.oig.dhs.gov                                9                                       OIG-12-85
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Management Response: CBP stated that it currently has no plan to expand the
           UAS fleet beyond the 10 systems already in operation or on order, unless
           directed to do so by higher authority.

           OIG Analysis: CBP comments do not fully address the intent of the
           recommendation, because it indicated there are no plans to expand the UAS
           fleet unless directed by higher authority. The recommendation will remain open
           and unresolved until the OIG has received and evaluated the corrective action
           plan related to recommendation #1.




www.oig.dhs.gov                              10                                     OIG-12-85
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The DHS OIG was established by the Homeland Security Act of 2002 (Public Law 107­
   296) by amendment to the Inspector General Act of 1978. This is one of a series of
   audit, inspection, and special reports prepared as part of our oversight responsibilities
   to promote economy, efficiency, and effectiveness within the Department.

   Our review objective was to determine whether CBP has established an adequate
   operation plan to define, prioritize, and execute its UAS mission. To accomplish our
   objective, we reviewed CBP policies, procedures, and plans to establish the UAS
   program, including the UAS Mission Needs Statement, Operation Requirements
   Document, Acquisition Plan for the CBP Strategic Air and Marine Plan, Strategic
   Implementation Plan, and Concept of Operations.

   We conducted analysis related to planning and operation of the UAS program. We also
   observed operations at the Air and Marine Operations Center in Riverside, California;
   the Joint Field Command in Tucson, Arizona; and the National Air Security Operation
   Centers in Cocoa Beach, Florida, and Sierra Vista, Arizona.

   We reviewed Office of Air and Marine plans to establish performance management for
   the UAS program in the Concept of Operations for CBP’s Predator B Unmanned Aircraft
   System and Office of Air and Marine Strategic Implementation Plan. We also reviewed
   the FY 2009–2014 Strategic Plan and the framework detailed in the Summary of
   Performance and Financial Information Fiscal Year 2010. We reviewed pertinent laws
   and regulations, including the DHS Acquisition Management Directive and best practices
   of the Project Management Institute.

   To gain an understanding of internal control that is significant within the context of the
   review objective, we interviewed representatives from OAM’s National Air Security
   Operations; Mission Support; Budget Formulation; Budget Execution; UAS Acquisitions;
   and Training, Safety and Standards. We also interviewed stakeholders from FEMA,
   NOAA, ICE, and the North Dakota Army National Guard. We reviewed funding, costs,
   and operation records, including congressional appropriations, contract actions, flight
   and maintenance logs, property records, and expenditures incurred to transfer
   equipment and crew to meet mission requirements. We observed CBP’s accounting
   system, including reports of purchase orders and funded contracts.




www.oig.dhs.gov                                11                                       OIG-12-85
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We conducted this review under the authority of the Inspector General Act of 1978, as
   amended, and according to the Quality Standards for Inspections issued by the Council
   of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                              12                                     OIG-12-85
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                       ! 300 Per.nsy["ania Avenue KW
                                                                                       V'hshinglon, DC 20229


                                                                                       u. S. CUstoms and
                                                                                       Bomer     Prot~ction
                                                         April 4. 2012




                  Cha rle .. K. Euwarrls
                  Acting Inspector General
                  Department of Homeland Security
                  245 Murray Drive. SW, Building 410
                  Washington, DC 20528

                  Re: OIG Draft Report Entitled , "esP's Use of Unmanned Aircraft Systems in
                      Lhe Nation's Rorder Security - For Official Use On ly" OIG Project
                      Number II-023-A UD-CBP (O IG- ll -{)8 8-AU D-CBP)

                  Dear Mr. Edwards:

                          Thank you for the opportunity to review and comment on this draft report. U.S.
                  C ustoms and Horder Protection (COP) appreciates the Office of Inspector General's
                  (O IG's) work in planning and conducting its review and issuing this report.

                         CBP is pleased to note [he OIG's acknu\NIeJgellll::nt of its Concept of Operations
                  amI uLher planning documenUslo utilize the unmanned aircratts' capabilities in its
                  missions. CBr is also pleased the OIG recognized its missions rerformtxl rO T a wide
                  range or stakt:holders, and included the general sati sraction of these customers with the
                  support provided.

                          The OIG addressed four recommendations to the Assistant Commissioner, Office
                  or Air and Marine..

                  Recommendation I: Analyze requirements and develop plans to Hchievt: the Unmanned
                  Aircraft SYSTems (UAS) mission availabiJi ty objective and acquire funding to provide
                  necessary operations, maintenance, and equipment.

                  CBl~ Response: CBP conl,;urs and has plans in place that achieve the rceolJlmendatifln.
                  The Strategic Air (lnd Mari ne Pial) (StAMP) clearly defines e BP's planned VAS
                  acquisition and sustaimTIcnt o\'er the next five years and beyond. Th is plan is based on
                  detai led operational plans, known as Concept orOpemtious (CONOPS), which arc
                  craned by operat'ions personnel and arc bascd on kno ......n and projected requirements.
                  Each aircraft element of the StA}.tIP is supported by an Operations Requirements
                  Document (ORD) that defines Ihe specifk I.;apabilities needed to achieve assigned
                  homeland security missions. From these requirements, mission support personnel
                  establish the infrastructure that wi ll be needed 10 "llow CBP agents to accomplish their
                  mission. These documents are evalualcd and revised os needed to reneet changing roles,
                  resources, and missions.




www.oig.dhs.gov                                                  13                                                    OIG-12-85
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  Funding requests arc dcveloped to support tile LIAS portion of the StAMP, but the actual
                  funding provided to the program is subject to changing Department and Agency criteria.
                  CBP will continue to request adequate funding based on known and proj t:l.;ted opt:rdliouaJ
                  requirements while judiciously utilizing available resources to accomplish CBP 's
                  mission.

                  Due Date: CBP has approved StAMP, CONOPS, and ORO documents that guide the
                  funding requests that support operations, maintenance, and equipment funding requests.
                  Whi le these documents are continuously evaluated and revised to address changes in
                  tlm:alS, the documents sufficiently address the current plan for the future state fo r the
                  UAS Program. cap respectfully requests the O IG close Recommendation 1.

                  Recomllleudation 2 : Develop and implement procedures to coordinElle WId support
                  stakeholders' mission requests.

                  CDP Response: CDP concurs with Recommendation 2 und continues to implement
                  flexible and responsive procedures to coordinate and support stakeholders' requcsl<;, to
                  include requests when the UAS is the most appropriate asset to meet these needs.
                  External requests ar\! received via email to specifi c group accounts designed to eapture
                  stakeholder requests. These requests are reviewed by CBP mission and intelJjgence
                  planners, and contain detailed information that enables CBP 10 assess the request for
                  urgem.:y, breadth, and type of info rmation required. Taking these clements into
                  consideration, CBP collection planne.rs assess which resource options are most viahle to
                  support stakeholder requirements based on asset capability. availability, effectiveness,
                  and impact; CBP mission and intelligence planners then coordinate with the appropriate
                  stakeholders and operational asset managers to schedule the operation. lnternRI
                  stakeholders are also afforded a mechanism to submit requirements online via a CBP
                  intranet site managed by the Offit;t: of Intelligence and Investigati....e Liaison. Unplanned,
                  time-sensitive requests may be received via phone or tactical radio. Requirements that
                  cannot be sufficient ly Sllpported with regionaUy deployed assets are forwarded to CBP
                  Headquarters fo r prioritization and coon.linatiun aeross its national architecture.
                  Feedback may be sought foUowing collection to determine whether stakeholder mission
                  requirement" were satisfied.

                  Due Dllte: CBP has implemented, and will continuously refine, its processes tn
                  coordinate and support stakeholders' mission requests. CBP respectfully requests the
                  010 close Recommendation 2.

                  Rerommendation ~: E"tabl ish interagency agreements with external stakeholders for
                  reimbursement of expenses incurred fulfilling mission reI.{ uests where authorized by law.

                  CDP Response: CBP cnncllt"S with t he intent of the recommendation, which is to
                  establish an approach and procedure for reimbursement. There are already ongoing
                  efforts within the Department of Homeland Security to address this issue. CBP
                  establishes intetagency agreements ( lAs) with government agency partners for resourcing




www.oig.dhs.gov                                                   14                                               OIG-12-85
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  efforts that fall outside the scope of our normal mission sets. These typically involve
                  utilizing CBP unmanned aircraft to demonstrate new technologies, capabilities, and
                  tactics. In the case of the Federal Emergency Management Agency, who has frequently
                  requested CDr UAS support, we have established a process where we receive
                  reimbursement through a Mission Assignment document. lAs are labor intensive and are
                  only executed where requirt:t.l.

                  H.ccommendation 4: Postpone additional UAS purchWSt:s uutil recommendation #1 has
                  been implemented.

                  CDP Response: In alignment with Federal Acquisition Regulations and Department
                  requirements, CBP concurs that appropriate plans are necessary prior to acquisitions. Per
                  the re"ponse to Recommendation 1. CBP has completed appropriate planning and
                  mission definition to justify the strategic future state for the UAS Program. Changing
                  threats will require that tbe planning and assessments oonUnue. CBP currently has no
                  plan to expand the UAS fleet beyond the 10 systems already in operation or on order,
                  unless directed to do so by higher authority.

                  Due Dale: Given that CDr's position is that it has fulfilled the requirements for
                  Recommendation I, CBP respectfully requests the OIG close Recommendation 4.

                  General comments that relate to statements that need to be clarified prior to finalization
                  of the report have been submitted under separate cover.

                         We look fOlward 10 working with you on future reviews. If you have any
                  Questions. please have a member of your staff contact Jennifer Topps, Audit Liaison.
                  Office oflntemal Affairs at (202) 325-7713.



                                                         Sincerely,


                                                       \:\Q:';. -~~e
                                                                  Tomsheck
                                                         Assistant Commissioner
                                                         Office of Internal Affairs




www.oig.dhs.gov                                                  15                                            OIG-12-85
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   DHS OIG Estimated Computation of Mission Availability
   The performance specifications contract of the Predator B provides that the aircraft
   should be capable of flying 20-hour missions. According to CBP, the UAS program
   operates an estimated 238 days a year. CBP’s mission availability performance
   specifications establish the threshold (minimum) at 16 hours, 4 days per week, and the
   objective (desired) at 16 hours, 5 days per week. According to the contract, it is the
   intent of the Government to acquire UASs, equipment, and services that meet or exceed
   threshold (minimum) requirements, and where practical, the UASs and services should
   satisfy objective (desired) requirements.

   The maintenance engineer said that, on average, the Predator B requires 1 hour of
   maintenance for every flight hour. Thus, the mission availability threshold and objective
   for seven aircraft operating an estimated 238 days per year are computed as follows:

   DHS OIG Estimate of Mission Availability Threshold

   7 aircraft × 16 hours × 238 days × 80% [4 days per week] × 50% maintenance =
   10,662 hours

   DHS OIG Estimate of Mission Availability Objective

   7 aircraft × 16 hours × 238 days [5 days per week] × 50% maintenance = 13,328 hours

   For the 12 months ended June 2011, CBP scheduled 7,336 flight hours with seven
   aircraft, one of which was placed in operation February 2011. Due to weather and other
   circumstances, actual flight hours were limited to 3,909 hours.




www.oig.dhs.gov                               16                                      OIG-12-85
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix D
   Major Contributors to This Report
   Alexander Best, Director
   Mark Ferguson, Audit Manager
   Kathleen Hyland, Auditor
   Ignacio Yanes, Program Analyst
   Cory Upmeyer, Program Analyst
   David DeHaven, Independent Referencer




www.oig.dhs.gov                            17                  OIG-12-85
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Assistant Commissioner, Office of Air and Marine
   Assistant Commissioner, Office of Internal Affairs
   Deputy Director, Office of Audit Management and Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             18                             OIG-12-85
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
